Department of Homeland Security
   Ofﬁce of Inspector General

      The Coast Guard's Maritime Safety and 

             Security Team Program 





OIG-10-89                                 May 2010
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       May 28, 2010

                                           Preface

The Department of Homeland Security Office of Inspector General was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the need for the Coast Guard to perform a comprehensive review and
analysis of the Maritime Safety and Security Team program to ensure that the Coast Guard
optimally meets its maritime law enforcement and homeland security mission requirements
in the current threat environment. It is based on interviews with relevant Coast Guard
officials and employees, direct observations, and a review of applicable documents.

The recommendation herein has been developed to the best knowledge available to our
office, and has been discussed in draft with those responsible for implementation. We
trust that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.



                                       Richard L. Skinner 

                                       Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................4
 


     Appropriateness of the MSST Model ............................................................................4 


     Staffing Levels, Training, and Competency Mix Needed for MSSTs...........................4 


     Alignment of Equipment to Mission Needs...................................................................5 


     Return on Investment and Opportunity Cost .................................................................5 


     Use of MSSTs to Complement Capabilities of Internal and External Stakeholders .....6 


     Recent Budget Proposals to Close MSST Units ............................................................6 


Recommendation .................................................................................................................7
 


Management Comments and OIG Analysis ........................................................................7 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.........................................................9 

     Appendix B:           Management Comments to the Draft Report .......................................10 

     Appendix C:           Major Contributors to This Report ......................................................14 

     Appendix D:           Report Distribution ..............................................................................15 


Abbreviations
     DHS                   Department of Homeland Security 

     FY                    Fiscal Year            

     GAO                   Government Accountability Office 

     MSST                  Maritime Safety and Security Team
 

     OIG                   Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Maritime Transportation Security Act of 2002 created Maritime
                Safety and Security Teams to function as part of the Department of
                Homeland Security’s layered strategy for protecting the Nation’s
                seaports and waterways. We audited the U.S. Coast Guard’s Maritime
                Safety and Security Team program to determine whether it optimally
                meets the Coast Guard’s maritime law enforcement and homeland
                security mission requirements in the current threat environment.

                The Coast Guard does not know whether the Maritime Safety and
                Security Team program is the optimal vehicle to conduct its maritime
                law enforcement and homeland security missions in the current threat
                environment. The Maritime Safety and Security Team program was
                implemented after the events of September 11, 2001, to meet a
                legislatively mandated requirement for increased security at our
                Nation’s seaports. Unless deployed, the Maritime Safety and Security
                Teams are not primarily first responders, but are intended to provide
                additional capacity for threats, terrorist acts, or other security missions.
                The Coast Guard conducted reviews of the program, but has not
                conducted a comprehensive analysis to validate that the Maritime
                Safety and Security Team program and structure is the best approach
                for achieving the program’s goals.

                We are recommending that the Coast Guard conduct a comprehensive
                analysis of the program to determine, among other things, the
                following:

                �	 The optimal staffing levels, training, and competency mix needed
                   to support the teams;
                �	 The alignment of equipment with mission requirements;
                �	 The return on investment and opportunity costs; and
                �	 Program coordination with internal and external stakeholders.

                The Coast Guard concurred with our recommendation. We
                incorporated the Coast Guard’s response to our recommendation in
                Appendix B.




               The Coast Guard’s Maritime Safety and Security Team Program 


                                         Page 1

Background
                          The U.S. Coast Guard has primary responsibility for protecting the
                          Nation’s seaports, and it has law enforcement authority in the maritime
                          domain. The Nation’s seaports, often located near major population
                          centers and hazardous fuel or chemical storage facilities, are widely
                          recognized as being vulnerable to acts of terrorism.

                          Prior to the terrorist attacks of September 11, 2001, U.S. ports,
                          waterways, and coastlines were protected primarily by Coast Guard
                          boat stations and cutters. Immediately following September 11, 2001,
                          Coast Guard resources were reallocated to fill the additional port
                          security functions required in a post 9/11 environment. However, due
                          to the increased demand for Coast Guard support, it became clear that
                          a permanent solution was needed. The Maritime Transportation
                          Security Act of 2002 (Public Law 107-295) created Maritime Safety
                          and Security Teams (MSSTs) to function as part of the Department of
                          Homeland Security’s layered strategy for protecting the Nation’s
                          seaports and waterways.1 According to the Act, the Coast Guard is
                          required to train and equip MSST units2 to:

                          �	 Deter, protect against, and rapidly respond to threats of terrorism in
                             the maritime domain;
                          �	 Enforce moving or fixed security zones established pursuant to law;
                          �	 Conduct high-speed intercepts;
                          �	 Board, search, and seize any article or thing on a vessel or at a
                             facility found to present a risk to the vessel or facility, or to a port;
                          �	 Rapidly deploy to supplement U.S. Armed Forces domestically or
                             overseas;
                          �	 Respond to criminal or terrorist acts within a port to minimize the
                             disruption caused by such acts;
                          �	 Assist with facility vulnerability assessments; and
                          �	 Carry out other security missions as assigned by the Secretary.




1
 Maritime Transportation Security Act of 2002 § 102, codified in 46 USC § 70106. 

2
 The statute requires the Secretary of the department in which the Coast Guard is operating to develop MSST 

units; the Coast Guard normally operates under the Secretary of Homeland Security, but operates under the 

Secretary of the Navy during times of war. Id., §§ 70101, 70106; 14 USC §§ 1, 3.
 

                        The Coast Guard’s Maritime Safety and Security Team Program 


                                                    Page 2

                         MSST boat crew demonstrating the high-speed maneuverability of a 25-foot
                         small boat in the Port of Anchorage, Alaska. Source: Coast Guard.

                         Currently, the MSST program consists of 12 units at the following
                         locations:

                           �    Anchorage, Alaska                 �   Honolulu, Hawaii
                           �    Los Angeles / Long Beach,         �   San Diego, California
                                California 

                           �    Galveston, Texas                  �   New Orleans, Louisiana 

                           �    Miami, Florida                    �   Kings Bay, Georgia 

                           �    New York, New York                �   Boston, Massachusetts 

                           �    San Francisco, California         �   Seattle, Washington 


                         While MSSTs do not primarily function as first responders, they
                         support Coast Guard boat stations, other DHS components, and federal
                         and local law enforcement agencies by providing security for domestic
                         and international waterways.3 For example, MSSTs have provided
                         support for events such as the G-20 Summit, national political
                         conventions, the Presidential inauguration, the Super Bowl, military
                         outloads, major maritime events, and international piracy missions.
                         MSSTs are one component of the Coast Guard’s deployable
                         specialized forces for reducing risk and vulnerabilities in U.S.
                         seaports.



3
 MSSTs are not first responders under the traditional Coast Guard search and rescue model where personnel
provide response coverage around the clock, seven days a week. However, when operationally deployed, they
are primary first responders.
                       The Coast Guard’s Maritime Safety and Security Team Program 


                                                  Page 3
 

Results of Audit

     The Coast Guard does not know whether the MSST program is the optimal vehicle to
     conduct its maritime law enforcement and homeland security missions in the current
     threat environment. The MSST program was implemented after the events of
     September 11, 2001, to meet a legislatively mandated requirement for increased
     security at our Nation’s seaports. In its current design, MSSTs are not primarily first
     responders, but are intended to provide additional capacity for threats, terrorist acts,
     or various other security missions. The Coast Guard conducted reviews of the
     program, but has not conducted a comprehensive analysis to validate that the MSST
     program and structure is the best approach for achieving the program’s goals. Until it
     completes such an analysis, the Coast Guard cannot ensure that investments in the
     MSST program represent a wise use of resources to meet current and future mission
     needs. Such an analysis would also support a decision on the proposal in the
     President’s FY 2011 budget to close five MSST units.

            Appropriateness of the MSST Model
                    The Coast Guard has not conducted a systematic analysis of the MSST
                    program to determine whether it is still the appropriate model to
                    address current and future threat environments, but it did provide
                    justification for the original MSST model to meet congressional
                    direction. It accelerated its analysis and standup of the MSST program
                    in 2002 in response to increased homeland security requirements in the
                    aftermath of the terrorist attacks of September 11, 2001. The Coast
                    Guard established and Congress approved all 12 of the existing MSST
                    units from 2002 through 2005. The Coast Guard chose all of the
                    MSST locations except for Anchorage, Alaska, which Congress
                    mandated. However, the Coast Guard has not conducted a
                    comprehensive program analysis, and would benefit from conducting
                    such an analysis to determine whether the MSST program is still the
                    appropriate model to address current and future threat environments.


            Staffing Levels, Training, and Competency Mix Needed for
            MSSTs
                    The Coast Guard could benefit from a thorough review of the staffing
                    levels, training programs, and skill mix needed for the MSST
                    program’s organization. As of August 2009, the MSST program had
                    958 full-time staff assigned to the 12 units. However, no
                    comprehensive analysis has been conducted to determine whether this
                    level of staffing is optimal to meet the required operating capabilities
                    of the MSST units.


                  The Coast Guard’s Maritime Safety and Security Team Program 


                                            Page 4

     While training content and curricula are standardized, training delivery
     and availability of training assets are not. A review of training records
     showed that MSST personnel had fulfilled minimum training
     requirements. However, these personnel had varying levels of skill
     and capability across units. In some instances, training facilities not
     under the Coast Guard’s control were unavailable to the MSST units,
     requiring them to make other arrangements. The Coast Guard has not
     assigned full-time training officers at each MSST unit who could
     modify training plans should scheduled training sessions be postponed
     or canceled. For example, the Coast Guard relied on other law
     enforcement entities to provide towers for vertical insertion training.
     When towers became unavailable because of unscheduled
     maintenance, training had to be rescheduled or a new tower had to be
     located. The Coast Guard is building a prototype tower at MSST
     Miami to address this issue. However, similar issues exist with other
     non-Coast Guard training facilities, such as firing ranges.

Alignment of Equipment to Mission Needs
     The Coast Guard could benefit from a comprehensive review of the
     MSST standard equipment list to ensure that it effectively meets its
     mission requirements. The original standard list of equipment has not
     been updated and includes items that may hinder the Coast Guard from
     optimally achieving the MSST mission. For example, initially MSST
     units were outfitted to use Coast Guard aircraft to transport boats and
     equipment to mission sites. Coast Guard aircraft can accommodate
     one trailered boat if the trailer’s tires are no larger than 14 inches in
     diameter. For efficiency reasons, MSSTs do not generally use Coast
     Guard air transport to move boats and trailers to operational sites;
     instead they haul boats and trailers up to 350 miles per day over land
     or may contract for commercial road transport for distances greater
     than 400 miles. However, the 14-inch tires were not designed to
     support long-distance trips, and deploying teams often experience tire
     failures. According to the Coast Guard, it has recently approved a
     configuration change to the trailer tire size that limits its ability to be
     used on Coast Guard aircraft but has improved the safety of boat trailer
     transportation over land.

Return on Investment and Opportunity Cost
     The Coast Guard could benefit from determining whether the funds
     spent on the MSST program could be put to more efficient and
     effective use. According to the Coast Guard, each MSST unit costs
     roughly $11 million per year to operate, including $3.5 million in
     operating costs and $7.5 million in salaries. Table 1 shows that,

    The Coast Guard’s Maritime Safety and Security Team Program 


                              Page 5

               excluding equipment and facility costs, the Coast Guard spends
               roughly $132 million annually on the 12 MSST units.

Table 1. MSST Unit Costs
                                    Average Operating Cost                    Total Cost for
                                    per MSST (in millions)             all 12 MSSTs (in millions)

Unit Operating Costs                              $3.5                           $42.0

Personnel Salary Costs                            $7.5                           $90.0

Total Costs                                       $11.0                         $132.0

      Use of MSSTs to Complement Capabilities of Internal and
      External Stakeholders
               A determination is needed of how the Coast Guard can best use
               MSSTs to complement the capabilities of related entities. MSSTs
               perform port security and law enforcement operations that augment
               those of Coast Guard Operational Commanders including Districts,
               Sectors, and small boat stations, other DHS components, Department
               of Defense government coordinating councils, and other law
               enforcement agencies. For example, MSSTs help the small boat
               stations escort cruise ships and ferry boats that enter U.S. harbors. An
               analysis of the historical use of MSSTs to support such operations
               could provide a basis for projecting how best to align and apply MSST
               capabilities to supplement ongoing and future mission needs. Further,
               given their complementary missions, there could be opportunities for
               MSSTs to better leverage the equipment and personnel resources of
               the related entities they support, resulting in efficiencies that are not
               currently realized.

      Recent Budget Proposals to Close MSST Units
               The FY 2011 Coast Guard budget submission includes the proposed
               closure of five MSST units and consolidation of those forces to
               achieve savings. Proposed closures are units in Anchorage, Alaska;
               Kings Bay, Georgia; New Orleans, Louisiana; New York, New York;
               and San Francisco, California. According to the Coast Guard,
               decommissioning these MSST units is estimated to result in a FY 2011
               savings of approximately $18.2 million. This budget has not yet been
               finalized or approved by Congress. Our recommendation that the
               Coast Guard conduct a comprehensive analysis of the MSST program
               will help determine whether this is the optimal course of action and


              The Coast Guard’s Maritime Safety and Security Team Program 


                                        Page 6

        will help identify additional potential cost savings and efficiencies
        within the MSST program.

Recommendation
        We recommend that the Commandant of the Coast Guard conduct a
        comprehensive, systematic review and analysis of the MSST program
        to determine:

        �	 The current threat environment and whether the program optimally
           supports this environment;
        �	 The optimal staffing levels, training, and competency mix needed
           to support the teams;
        �	 The alignment of equipment with mission requirements;
        �	 The return on investment and opportunity costs; and
        �	 Program coordination with internal and external stakeholders, such
           as small boat stations, other department components, or other law
           enforcement agencies.

Management Comments and OIG Analysis
        The Coast Guard provided comments to this report which are included
        as Appendix B. The Coast Guard concurred with our recommendation
        to conduct a comprehensive, systematic review and analysis of the
        MSST program to determine:

        �	 The current threat environment and whether the program optimally
           supports this environment;
        �	 The optimal staffing levels, training, and competency mix needed
           to support the teams;
        �	 The alignment of equipment with mission requirements;
        �	 The return on investment and opportunity costs; and
        �	 Program coordination with internal and external stakeholders, such
           as small boat stations, other department components, or other law
           enforcement agencies.

        The Coast Guard stated that, while much of this comprehensive review
        is ongoing, the recommended focus areas will assist the Coast Guard
        in ensuring the MSST program is properly organized, staffed,
        equipped, and trained to meet the mission and challenges of the current
        threat environment.




       The Coast Guard’s Maritime Safety and Security Team Program 


                                 Page 7
 

 OIG Analysis

 We consider the Coast Guard’s proposed actions responsive to this
 recommendation. By conducting a comprehensive, systematic review
 and analysis of the MSST program, the Coast Guard will be able to
 determine whether the MSST program is the optimal vehicle to
 conduct its maritime law enforcement and homeland security missions
 in the current threat environment. We consider this recommendation
 resolved and open until we have reviewed the results of the Coast
 Guard’s comprehensive, systematic review and analysis of the MSST
 program.




The Coast Guard’s Maritime Safety and Security Team Program 


                          Page 8
 

Appendix A
Purpose, Scope, and Methodology

                    Our objective was to determine the justification for establishing the
                    MSST program and determine whether it optimally meets the
                    Coast Guard’s maritime law enforcement and homeland security
                    mission requirements in the current threat environment. We
                    evaluated the original analysis and justification for the design and
                    implementation of the MSST program. In addition, we reviewed
                    policies and procedures, and reviewed issues relating to readiness
                    such as equipment and training programs.

                    We reviewed MSST operational requirements, planning
                    documents, and status and monitoring reports. We reviewed prior
                    Government Accountability Office and Coast Guard reports and
                    other relevant reports and documents relating to the MSST
                    program. In addition, we reviewed specific training plans and
                    training records using a statistical sample selected by the Office of
                    Inspector General.

                    We interviewed Coast Guard command and personnel; reviewed
                    documents, training records, the master training plan, course
                    descriptions for training classes, qualifications, and certifications
                    that MSST personnel are required to complete; and the deployment
                    schedule. We also reviewed the Ready for Operations report
                    results to aid in the selection of MSST units to visit.

                    We toured and physically observed operations at five MSST unit
                    facilities. We conducted audit fieldwork at the Coast Guard
                    Headquarters in Washington, DC; the Deployable Operations Group
                    Headquarters in Arlington, Virginia; and MSST unit locations at Los
                    Angeles/Long Beach, California; Miami, Florida; New Orleans,
                    Louisiana; Boston, Massachusetts; and Galveston, Texas.

                    We conducted this performance audit between March 2009 and
                    March 2010 under the authority of the Inspector General Act of
                    1978, as amended, and according to generally accepted
                    government auditing standards. Those standards require that we
                    plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives.

                    We believe the evidence obtained provides a reasonable basis for
                    our findings and conclusions based on our audit objectives. We
                    would like to extend our appreciation to the Coast Guard and, in
                    particular, to MSST personnel for the cooperation and courtesies
                    extended to our staff during this audit.


                The Coast Guard’s Maritime Safety and Security Team Program 


                                          Page 9

Appendix B
Management Comments to the Draft Report


      U.S.De~nbnento~.
      Homet.nd Security
                                          Commandant
                                          Unitt<! Stales Coast Guard
                                                                                  2100 Second Strffi, S.w.. Stop 72-4$
                                                                                  Washington, DC 20$93-0001
                                                                                  swrSymbol:CG-&23
                                                                                  Phone: (202)3n.3Sl3
      United States                                                               Fill: (202jln·21l1
      Cout Guard
                                                                                  7501


     MEMORANDUM
     From:   T. W. JONES, CAPT
                                      17tfL
                                   !ZW),
                                                                                  APR 2 3 2010


                                                                       Reply to   Audit Manager,
             COMDT (CG-82)                             .               Attn of:   Mark Kulwicki
                                                                                  (202) 372-3533
     To;     Anne L. Richards
             Assistant Inspector General for Audits


     Subj:   RESPONSE TO DHS DIG DRAFT, "THE COAST GUARD'S MARITIME AND
             SECURITY TEAM PROGRAM"

     Ref:    (a) Department of Homeland Security Inspector General (DHS DIG) Draft Report of
             March 23, 2010

     1. This letter transmits the Coast Guard's response to the Department of Homeland Security
     Inspector General (DRS DIG» draft findings and recommendation in reference (a).

     2. Coast Guard concurs with the overall findings and recommendation.

     3. !fyou have any questions, my point ofC<lntact is Mr. Mark Kulwicki at (202) 372-3533.

                                                       #

     Enclosure: (I) USCG Comments




                   The Coast Guard’s Maritime Safety and Security Team Program 


                                               Page 10
 

Appendix B
Management Comments to the Draft Report



                     UNITED STATES COAST GUARD (USCG) RESPONSE
                     ON THE DEPARTMENT OF HOMELAND SECURITY
                          INSPECTOR GENERAL DRAFT REPORT

       TITLE: "The Coast Guard's Maritime Safety and Security Team Program."

       COAST GUARD'S GENERAL COMMENTS ON DHS OIG FINDINGS:

       The Coast Guard generally concurs with the overall findings and recommendations in the
       report, particularly the need to conduct a comprehensive analysis of the Maritime Safety
       and Security Team Program (MSST) program. While the Coast Guard continually
       assesses its forces to ensure they are properly organized, equipped, staffed, and trained to
       meet the current missions and anticipated future challenges, this is more often done via
       an incremental vice comprehensive process.

       In 2002. the Coast Guard was faced with a new national maritime security posture and a
       gap in available forces capable of providing maritime security activities for ports
       throughout the nation. The Maritime Transponation Security Act of 2002 created
       Maritime Safety and Security Teams. The Coast Guard chose to invest in deployable
       security forces, establishing MSSTs throughout the nation to provide needed capacity and
       competencies for maritime security. While the MSSTs have evolved as the program has
       matured over the years, the Coast Guard remains committed to the core MSST concept of
       deployable security forces with specialized capabilities to carry out the Coast Guard's
       pon security mission.

       The Coast Guard is currently conducting a comprehensive review the deployable
       specialized forces (including the MSSTs) in order to ensure teams are equipped,
       employed and organized to meet the full range of mission requirements. This review
       addresses issues highlighted by the DHS-OIG MSST report. In addition the review is
       assessing additional synergies, efficiencies, and potential for imprOVed effectiveness
       through force combination and reconfiguration. This continues the Coast Guard's efforts
       to be good stewards of public resources, and the continual commitment to ensure Coast
       Guard forces are best organized, equipped, and trained to meet the current and future
       challenges to the Coast Guard and the Nation.

       RECOMMENDAnONe,),

       OIG Recommentation #1: We recommend that the Commandant of the Coast Guard
       conduct a comprehensive systematic review and analysis of the MSST program.

       USCG Response: Concur. While much of this comprehensive review is ongoing,
       recommended focus areas will assist the Coast Guard in ensuring the MSST program is
       properly organized, staffed, equipped, and trained to meet the mission and challenges of
       the current threat environment.




                  The Coast Guard’s Maritime Safety and Security Team Program 


                                            Page 11
 

Appendix B
Management Comments to the Draft Report


       ADDITIONAL AGENCY COMMENTS ON DUS-OIG REPORT:

        Page 3, 4, "MSSFs do not primarilyfunction as first responders":

       Maritime Safety Security Teams (MSST) can and do respond to emergent threats. By
       design, they are both short-notice security forces, available to respond to emergent issues
       as well as pre-planned operations to support Coast Guard Operational Commanders, other
       DHS components, DOD Geographic Combatant Commanders, and federal and local law
       enforcement agencies by providing security both domestically and internationally.

       Page 4, "The Coast Guard does not know whether the MSST program is the optimal
       vehicle to conduct its maritime law enforcement and homeland security missions in the
       current threat environment. "

       The MSST is one of several force providers in the suite of complimentary Coast Guard
       resources used to provide layered security. The Coast Guard continually assesses it
       forces to detennine whether they are properly organized, staffed, equipped, and trained to
       meet the eleven statutory missions. These assessments arc typically done incrementally.
       The Coast Guard remains dedicated to the deployable, specialized security force
       construct as the proper investment for the nation.

       Page 5, "The Coast Guard could benefit from a comprehensive review ofMSSF standard
       equipment list to ensure that it effectively meets its mission requirements. "

       The Coast Guard, specifically the Deployable Operations Group, continually addresses
       the equipment needs associated with the MSSTs and all deployable specialized forces.
       The recent change to the MSST boat trailer tire size was a direct result of these ongoing
       efforts. Similarly, standardization of ballistie protection equipment for out of country
       deployment needs resulted from this continual review. The Coast Guard has made
       significant strides in establishing common equipment between different deployable
       specialized force types to further augment the Adaptive Force Packaging concept;
       providing for seamless integration of members and equipment from different deployable
       specialized force types into cohesive teams for joint operations.

       Page 6, "The Coast Guard could benefitfrom determining whether the funds spent on the
       MSST program could be put to more efficient and effective use. "

       The MSSTs were developed through Congressional Mandate to address anti/counter
       terrorism and maritime security requirements that came to light in the post 9/11 Global
       War on Terror threat environment. The Coast Guard continually assesses the overall
       force structures, capabilities and capacities to meet statutory mission requirements.

       Page 6, "A determination is needed ofhow the Coast Guard can best use MSSTs to
       complement the capabilities ofrelated entities. "




                  The Coast Guard’s Maritime Safety and Security Team Program 


                                            Page 12
 

Appendix B
Management Comments to the Draft Report


     The Coast Guard, as DHS's Executive Agent and Lead Federal Agency for Maritime
     Security, is an active participant in the Maritime Operationallbreat Response (MOTR)
     Forces synchronization efforts, which includes appropriate DOD and Interagency
     representation to "ensure the interoperability and synchronization of their collective
     maritime threat response assets and capabilities by establishing integrated maritime
     counterterrorism operational response capabilities." MSSTs, as well as other Coast
     Guard forces, are included in these efforts.

     Page 7, "The FY2011 jederal budget includes the proposed closure offive MSST units
     and consolidation ofthose forces to achieve savings. "

     The Fiscal Year 2011 President's Budget decommissions five MSSTs. The seven
     remaining MSSTs will deploy regionally to mitigate the highest prevailing port security
     risks in the Nation's critical ports.




                  The Coast Guard’s Maritime Safety and Security Team Program 


                                            Page 13
 

Appendix C
Major Contributors to This Report

                    Brooke Bebow, Director
                    Paul Streit, Team Leader
                    Michael Staver, Auditor in Charge
                    Jacque Bear, Program Analyst
                    Scott Crissey, Program Analyst
                    Falon Newman-Duckworth, Program Analyst
                    Gwen Priestman, Program Analyst
                    Lorinda Couch, Desk Officer
                    James Bess, Referencer




                The Coast Guard’s Maritime Safety and Security Team Program 


                                          Page 14
 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      United States Coast Guard Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                The Coast Guard’s Maritime Safety and Security Team Program 


                                          Page 15
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
